U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                          March 2, 2007
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the tenth since enactment of the legislation in October 2001 – summarizes the
OIG’s Section 1001-related activities from July 1, 2006, through December 31,
2006.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components.1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division provides an alternative
           mechanism to traditional audits and investigations to review
           Department programs and activities.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG can investigate allegations of misconduct by any Department employee,
except for allegations of misconduct by attorneys (or investigators working under the direction
of Department attorneys) acting in their capacity to litigate, investigate, or provide legal advice.
See Pub. L. 107-273 § 308, 116 Stat. 1784 (Nov. 2, 2002).


Office of the Inspector General, U.S. Department of Justice                              Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division assists the OIG by providing
          services in the areas of planning, budget, finance, personnel, training,
          procurement, automated data processing, computer network
          communications, and general support.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001.2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters, a second who assists on FBI matters, and a third who provides
support on ATF cases. In addition, four Investigative Specialists support the
unit and divide their time between Section 1001 and FBI/DEA/ATF
responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an Investigative Specialist. After review, the complaint is entered
into an OIG database and a decision is made concerning its disposition. The
more serious civil rights and civil liberties allegations that relate to actions of
DOJ employees or DOJ contractors normally are assigned to an OIG
Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct.3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs (OIA) for appropriate handling. In certain referrals, the OIG requires the
components to report the results of their investigations to the OIG. In most
cases, the OIG notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the border patrol are sent to the
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs at the Department of State, Department of Defense,
and Department of the Treasury. In addition, we have referred complainants to
state and local Departments of Correction that have jurisdiction over the
subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the complaint is
discussed with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution.

     A. Complaints Processed This Reporting Period

       From July 1, 2006, through December 31, 2006, the period covered by
this report, the OIG processed 589 Section 1001-related complaints.4

       Of these complaints, we concluded that 460 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Approximately 208 of
these 460 complaints involved allegations against agencies or entities outside
of the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. The remaining 252 complaints raised allegations that, on their
face, did not warrant investigation. For example, complaints in this category
included frivolous allegations that FBI agents programmed the complainant
with a human tracking system and that FBI agents and the President poisoned
the complainant’s food.

      The remaining 129 of the 589 total complaints involved DOJ employees
or components and included allegations that required further review. We
determined that 122 complaints raised management issues that generally were
not related to our Section 1001 duties, and we referred them to DOJ
components for appropriate handling. Examples of complaints in this category
included inmates’ allegations about the general conditions at federal prisons or
complaints that the FBI did not initiate an investigation into particular
allegations.

      One of the 159 complaints did not provide sufficient detail to make a
determination whether an allegation of civil rights or civil liberties-related
abuse occurred. We requested further information from this complainant but
did not receive a response.

     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
       The OIG identified the 6 remaining complaints as matters that we
believed warranted an investigation to determine if a Section 1001-related
abuse occurred. Three of the matters are being investigated by the OIG, and 3
of the matters were referred to the BOP for investigation. We discuss the
substance of these 6 complaints in the next section of this report.

       None of the 589 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period:

      Complaints processed:                        589

      Unrelated complaints:                        460

      Total complaints within OIG’s
       jurisdiction warranting review:             129

         •   Management issues:                    122

         •   OIG unsuccessfully sought
             further information:                     1

         •   Possible Section 1001 matters
             warranting investigation:                6

    B. Section 1001 Cases This Reporting Period

      1. New matters

       During this reporting period, the OIG opened three new Section 1001
investigations. The OIG referred three other Section 1001-related complaints
to the BOP for investigation and requested that the BOP provide the OIG with a
copy of its investigative reports upon completion of these investigations. The
three new matters opened by the OIG are:

         •   The OIG is investigating allegations from a BOP inmate that
             correctional officers came to his cell in a Special Housing Unit
             during a routine movement of the inmate to another cell and
             referred to the complainant and his cellmate as “camel jack and
             Saddam Hussein.” The inmate further alleged that when he asked
             the correction officers not to speak to him in that manner, they
             assaulted him. The complainant alleged that when he tried to file


Office of the Inspector General, U.S. Department of Justice           Page 5
             a complaint with the BOP, he was told that an investigation could
             take up to 6 months and that during that time he would be placed
             in the general population where the word would get out that the
             inmate was a snitch. This OIG investigation is ongoing.

         •   The OIG investigated allegations from a BOP inmate that he was
             being mentally and physically abused by BOP personnel because of
             his religion and culture. Specifically, the inmate alleged that BOP
             staff spread a rumor that he was an Al Qaeda member; called him
             a terrorist and a radical Muslim in front of other inmates; placed
             him in the Special Housing Unit ten separate times without cause;
             refused to provide him with adequate medical treatment;
             questioned him about his convictions; and tampered with his mail.
             The OIG investigation did not substantiate any of the inmate’s
             allegations.

         •   The OIG initiated an investigation based on allegations from a BOP
             inmate’s mother that her son was assaulted by correctional officers
             while he was restrained. The inmate’s mother further alleged that
             the assault was just one of a series of incidents with staff because
             of her son’s Iranian ethnicity. The OIG interviewed the inmate,
             who stated that his mother misunderstood his conversation with
             her, and that he did not believe he was assaulted because of his
             ethnicity. Instead, the inmate stated that officers used undue
             force to subdue him during an incident at the prison. According to
             correctional officers interviewed by the OIG, the inmate became
             combative after refusing an order by a correctional officer, and
             officers used physical force to subdue the inmate. The OIG
             investigation did not substantiate that undue force was used or
             that the officers involved acted improperly.

The following complaints were referred to the BOP for investigation:

         •   An inmate alleged that he was unjustly placed in the Special
             Housing Unit for 25 days after he reported that he was harassed
             by another inmate. The inmate further alleged that he has been
             “mentally tortured” because he is Muslim and his name is
             Mohammad. The BOP investigation is ongoing.

         •   An inmate alleged that he is being harassed and discriminated
             against by BOP correctional officers because he is Muslim and of
             Pakistani origin. Specifically, the inmate alleged that his telephone
             privileges were suspended because of his language; he was placed
             in the Special Housing Unit without explanation; his non-English
             mail was delayed for up to 2 months; and he was forced to work at



Office of the Inspector General, U.S. Department of Justice             Page 6
             his job for long periods, which did not leave him with enough time
             to practice his religion. This BOP investigation is ongoing.

         •   An inmate alleged that he was verbally abused by a BOP
             correctional officer and called a “terrorist.” He also claimed that
             when this correctional officer was on duty, his hot food tray was
             always served cold. The investigation is ongoing.

      2. Investigations closed during this reporting period

         •   The BOP investigated allegations from an inmate that a BOP
             employee called the inmate Osama bin Laden and suggested that
             he was going to post the inmate’s picture at the post office next to
             the pictures of other wanted terrorists. The BOP investigation
             found insufficient evidence to substantiate the allegations.

         •   The BOP investigated allegations made by a Muslim inmate that
             after his family members mistakenly left their personal
             identification cards at a BOP facility following a visit, BOP staff
             destroyed the cards. The Muslim inmate also alleged that he had
             been singled out for harassment and that his civil rights were
             being violated by the BOP not allowing him to meet with his
             attorney because he refused to submit to strip searches, a practice
             he claimed violated his Muslim beliefs. The BOP found insufficient
             evidence to substantiate the allegations.

         •   The BOP investigated an inmate’s allegations that a correctional
             officer refused to serve Muslim inmates their Ramadan meals and
             verbally abused them. The inmate also alleged that he was
             assaulted and threatened by a correctional officer. The BOP found
             insufficient evidence to substantiate the allegations.

         •   The BOP investigated allegations from a Muslim inmate that
             correctional officers told him he was going to receive the same
             treatment as Muslim prisoners in Iraq. The BOP found insufficient
             evidence to substantiate the allegations.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. Using this approach, the OIG has initiated
or continued several special reviews that relate to the OIG’s duties under
Section 1001. In this section of the report, we also discuss a DOJ Office of
Professional Responsibility review that was closed during this reporting period.


Office of the Inspector General, U.S. Department of Justice              Page 7
      A. Review of the FBI’s Use of National Security Letters and Ex Parte
         Orders for Business Records

      As directed by the USA Patriot Improvement and Reauthorization Act of
2005 (Public Law 109-177) (Patriot Reauthorization Act), the OIG initiated a
review examining the FBI’s use of two authorities established or amended by
the Patriot Act:

       (1) the FBI’s authority to issue national security letters to obtain certain
categories of records from third parties, including telephone toll billing records,
electronic communication transactional records, financial records, and credit
information; and

      (2) the FBI’s authority to obtain business records from third parties by
applying for ex parte orders issued by the Foreign Intelligence Surveillance
Court pursuant to Section 215 of the Patriot Act.

       The Patriot Reauthorization Act directs the OIG to review the extent to
which the FBI has used these authorities; any bureaucratic impediments to
their use; how effective these authorities have been as investigative tools and in
generating intelligence products; how the FBI collects, retains, analyzes, and
disseminates information derived from these authorities; whether and how
often the FBI provided information derived from these authorities to law
enforcement authorities for use in criminal proceedings; and whether there has
been any improper or illegal use of these authorities. See Sections 106A and
119 of Public Law 109-177.

       In conducting this review, the OIG examined FBI investigative files,
interviewed FBI and DOJ officials, visited several FBI field offices, and analyzed
the FBI’s use of these authorities in 2003-2005. The OIG is completing its
reports on the FBI’s use of national security letters and Section 215 orders. In
March 2007, the OIG will provide the full report to Congress and an
unclassified version of the report publicly.

      B. Recommendations in the September 11 Detainee Report

      In June 2003, the OIG issued a report entitled, “The September 11
Detainees: A Review of the Treatment of Aliens Held on Immigration Charges
in Connection with the Investigation of the September 11 Attacks.” In that
report, the OIG made 21 recommendations related to issues under the
jurisdiction of the FBI, the BOP, and leadership offices at the DOJ, as well as
immigration issues now under the jurisdiction of the DHS. As of this reporting
period, 20 of the recommendations have been resolved. The one open
recommendation calls for the Department and the DHS to enter into a
memorandum of understanding (MOU) to formalize policies, responsibilities,


Office of the Inspector General, U.S. Department of Justice              Page 8
and procedures for managing a national emergency that involves alien
detainees. After the OIG’s issuance of the report, the DOJ and DHS agreed
with the recommendation and began negotiating over language in the MOU to
implement the recommendation. However, more than 3 years after the OIG
made the recommendation and the DOJ and DHS agreed to implement the
regulation, the MOU still has not been completed. As of January 2007, we
were informed that discussions between the Department and the DHS over the
language of this MOU remain ongoing.

      C. September 2005 Shooting Incident Involving the FBI and
         Ojeda Rios

       In August 2006, the OIG issued a report examining the September 2005
shooting incident involving the FBI and long-time fugitive Filiberto Ojeda Rios,
leader of a clandestine Puerto Rican pro-independence organization that
claimed credit for violent crimes during the 1970s and 1980s. On September
23, 2005, FBI agents approached a residence in western Puerto Rico to arrest
Ojeda. The operation resulted in an exchange of gunfire between Ojeda and
the FBI in which one FBI agent was seriously wounded. The exchange was
followed by a standoff during which FBI agents unsuccessfully tried to
persuade Ojeda to surrender. Later, an FBI agent observed Ojeda with a gun
in his hand and fired three shots, one of which struck Ojeda. Although several
agents heard Ojeda cry out and fall, none entered the house until the next day,
at which time FBI agents found Ojeda dead on the floor.

      The FBI Director requested that the OIG conduct an investigation to
determine the facts and circumstances of the Ojeda shooting incident and to
make recommendations regarding what actions, if any, the FBI should take in
connection with it.

       The OIG concluded that the FBI agents’ use of force in the Ojeda
operation did not violate the Department’s Deadly Force Policy, which states
that Department law enforcement officers may use deadly force when the
officer “has a reasonable belief that the subject of such force poses an
imminent danger of death or serious physical injury to the officer or to another
person.” The OIG found that Ojeda became aware that the FBI was coming to
arrest him, made preparations to resist arrest, and opened fire on the agents as
they attempted to enter the residence and before any agents had discharged
their weapons. The OIG concluded that once Ojeda began firing he posed an
imminent danger to the agents, and the agents were justified in returning fire.

      The OIG also determined that the FBI’s cautious approach toward
entering the residence after Ojeda was shot was motivated by considerations of
agent safety, not by any desire to withhold medical treatment from Ojeda. The
FBI’s concern during this period was that Ojeda might not be incapacitated
and there might be a second gunman inside the house because the arrest team


Office of the Inspector General, U.S. Department of Justice           Page 9
believed that more than one weapon had been fired at them during the initial
gunfight. FBI Headquarters officials also were concerned that it would be
difficult to detect improvised explosive devices inside the house at night.
Moreover, the OIG found that the decision to delay entry until the next day
likely had no impact on Ojeda’s death. The forensic pathologist from the
Puerto Rico Institute of Forensic Sciences who performed the autopsy
estimated that Ojeda died from blood loss approximately 15 to 30 minutes after
being shot.

        However, the OIG report cited deficiencies in several aspects of the
planning and execution of the attempted arrest. For example, the investigation
determined that the decision to conduct an emergency daylight assault to
arrest Ojeda was extremely dangerous and was not the best option available.
The OIG concluded that a strategy of surrounding the residence and calling for
Ojeda to surrender, with the option of using chemical agents such as tear gas
to force Ojeda outside, would have been a safer and more effective strategy.
The report made 10 recommendations intended to improve the planning and
conduct of future FBI arrest operations, including ensuring the reconsideration
of all relevant tactical options when circumstances change and ensuring that
negotiations are integrated into tactical planning for operations in which a
standoff is a foreseeable contingency.

       The FBI responded to our recommendations in November 2006. The
FBI’s response indicates that the FBI is implementing measures to address
concerns raised by the report. However, several responses did not address the
recommendations with sufficient specificity or disagreed with our analysis of
deficiencies we identified in the planning and execution of the Ojeda operation.
The FBI also disagreed in full with one recommendation. We will continue to
monitor the FBI’s response to our recommendations.

      D.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

      In June 2006, the OIG initiated a review to examine allegations that the
FBI targeted domestic advocacy groups for scrutiny based solely upon their
exercise of rights guaranteed under the First Amendment of the United States
Constitution. The review is examining allegations regarding the FBI’s
investigation, and the predication for any such investigation, of groups such as
the Thomas Merton Center, Greenpeace, and People for the Ethical Treatment
of Animals (PETA). Our review of the domestic advocacy groups will be similar
in focus to the OIG’s April 2006 review of the FBI’s investigation of potential
protesters at the 2004 Democratic and Republican National Conventions.




Office of the Inspector General, U.S. Department of Justice            Page 10
      E. Review of FBI Conduct Relating to Detainees in Military
         Facilities in Guantanamo Bay and Iraq

      The OIG is reviewing FBI employees’ observations and actions regarding
alleged abuse of detainees at Guantanamo Bay, Abu Ghraib prison, and other
venues controlled by the U.S. military. The OIG is examining whether FBI
employees participated in any incident of detainee abuse, whether FBI
employees witnessed incidents of abuse, whether FBI employees reported any
abuse, and how those reports were handled by the FBI.

       In this review, the OIG has interviewed detainees, FBI employees, and
military personnel at Guantanamo. In addition, the OIG has administered a
detailed questionnaire to more than 1,000 FBI employees who served
assignments at Guantanamo Bay, in Iraq, and in Afghanistan. The
questionnaire requested information on what the FBI employees observed,
whether they reported observations of concern, and how those reports were
handled. The OIG received over 900 responses to its questionnaire. The OIG
investigative team is in the process of drafting the report summarizing the
results of the investigation.

       F. FBI’s Reporting of Possible Intelligence Violations to the
          President’s Intelligence Oversight Board

       In the OIG’s March 2006 Section 1001 report, we described our
examination of the FBI’s process for reporting possible violations involving
intelligence activities to the Intelligence Oversight Board (IOB). The
examination focused on fiscal years 2004 and 2005. As set forth in the last
report, the FBI made 108 reports of possible violations to the IOB for fiscal
years 2004 and 2005.

      The FBI’s reports to the IOB describe incidents that generally fell into one
or more of the following three categories: (1) improper utilization of authorities
under FISA; (2) failure to adhere to Attorney General Guidelines or
implementing FBI policy; and (3) improper utilization of authorities involving
National Security Letters. The matters reported to the IOB encompassed a
broad range of intelligence activities used by the FBI, although most of the
possible violations involved electronic surveillance.

      The OIG is currently conducting a follow-up review of the FBI’s handling
of IOB matters for fiscal year 2006.

      G. Material Witness Warrants

       As we described in previous reports, DOJ OPR was conducting an
inquiry regarding the DOJ’s use of material witness warrants. This review was
initiated in response to complaints from the American Civil Liberties Union and


Office of the Inspector General, U.S. Department of Justice             Page 11
Human Rights Watch that the DOJ had abused material witness warrants.
The two organizations detailed their complaints in a report in June 2005
entitled “Witness to Abuse: Human Rights Abuses under the Material Witness
Law since September 11.” That report reviewed several material witness cases
and a series of allegations that the material witness law had been misused to
hold suspects in cases where there was insufficient evidence to charge them
criminally; witnesses were not brought promptly before a judge, were denied
counsel, or were not provided with the reason for their arrest; and that many
judicial proceedings were improperly conducted in secret.

       Based on the allegations in the report, DOJ OPR opened an inquiry
regarding the allegations concerning 13 separate individuals and one group of
8 individuals detained together. According to DOJ OPR, some of these matters
involved allegations that individuals were held for long periods of time
on material witness warrants with no effort to obtain their testimony. Several
of these individuals were later charged criminally or deported based on
immigration violations. Other matters involved the alleged failure to
bring individuals before a court within the required time frame and the failure
to inform witnesses of the basis for their arrest. OPR recently reported to the
OIG that its inquiry is complete and that based on the results of its
investigation, OPR concluded that the material witness statue was not misused
in any of the cases it reviewed.

      H. Review of the Department’s Involvement with the National
         Security Agency’s Terrorist Surveillance Program or Warrantless
         Surveillance Program

      The OIG has initiated a program review of the Department’s involvement
with the National Security Agency (NSA) program known as the “terrorist
surveillance program” or “warrantless surveillance program.” This review will
examine the Department’s controls and use of information related to the
program and the Department’s compliance with legal requirements governing
the program.

V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

      During this reporting period, the OIG spent approximately $1,197,396 in
personnel costs, $4,419 in travel costs (for investigators to conduct interviews),
and $1,245 in miscellaneous costs, for a total of $1,207,132 to implement its


Office of the Inspector General, U.S. Department of Justice             Page 12
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice           Page 13
